<html>
<title> - ELDER ABUSE, NEGLECT, AND EXPLOITATION: ARE WE DOING ENOUGH?</title>
<body><pre>[Senate Hearing 108-445]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-445
 
      ELDER ABUSE, NEGLECT, AND EXPLOITATION: ARE WE DOING ENOUGH?

=======================================================================

                                HEARING

                               before the

         SUBCOMMITTEE ON CRIME, CORRECTIONS AND VICTIMS' RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 2003

                               __________

                          Serial No. J-108-43

                               __________

         Printed for the use of the Committee on the Judiciary









                        U.S. GOVERNMENT PRINTING OFFICE

93-251                            WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001











                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

         Subcommittee on Crime, Corrections and Victims' Rights

              LINDSEY O. GRAHAM, South Carolina, Chairman
ORRIN G. HATCH, Utah                 JOSEPH R. BIDEN, Jr., Delaware
CHARLES E. GRASSLEY, Iowa            HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LARRY E. CRAIG, Idaho                RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
                 James Galyean, Majority Chief Counsel
                Neil MacBride, Democratic Chief Counsel



















                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., a U.S. Senator from the State of Delaware, 
  prepared statement.............................................    28
Craig, Hon. Larry E., a U.S. Senator from the State of Idaho, 
  prepared statement.............................................    43
Graham, Hon. Lindsey O., a U.S. Senator from the State of South 
  Carolina.......................................................     1
    prepared statement...........................................    45
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa, 
  prepared statement.............................................    47
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah, 
  prepared statement.............................................    51
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    64

                               WITNESSES

Chiles, Christopher D., Prosecuting Attorney, Cabell County, West 
  Virginia, and Vice President, National District Attorneys 
  Association, Alexandria, Virginia..............................    10
Holbrook, Douglas C., Member, Board of Directors, American 
  Association of Retired Persons, Washington, D.C................    14
Huse James G., Inspector General, Social Security Administration, 
  Washington, D.C................................................     5
Mihalko, Daniel L., Inspector in Charge, Congressional and Public 
  Affairs, Postal Inspection Service, Washington, D.C............     2
Stiegel, Lori A., Associate Staff Director, Commission on Law and 
  Aging, American Bar Association, Washington, D.C...............    16
Wright, James A., National Sheriffs' Association, Alexandria, 
  Virginia.......................................................    12

                          QUESTION AND ANSWER

Response of Mr. Huse to a question submitted by Senator Craig....    23

                       SUBMISSIONS FOR THE RECORD

Breaux, Hon. John, a U.S. Senator from the State of Louisiana, 
  prepared statement.............................................    30
Chiles, Christopher D., Prosecuting Attorney, Cabell County, West 
  Virginia, and Vice President, National District Attorneys 
  Association, Alexandria, Virginia, prepared statement..........    34
Holbrook, Douglas C., Member, Board of Directors, American 
  Association of Retired Persons, Washington, D.C., prepared 
  statement......................................................    53
Huse James G., Inspector General, Social Security Administration, 
  Washington, D.C., prepared statement...........................    61
Mihalko, Daniel L., Inspector in Charge, Congressional and Public 
  Affairs, Postal Inspection Service, Washington, D.C., prepared 
  statement......................................................    66
Stiegel, Lori A., Associate Staff Director, Commission on Law and 
  Aging, American Bar Association, Washington, D.C., prepared 
  statement......................................................    78
Wright, James A., National Sheriffs' Association, Alexandria, 
  Virginia.......................................................    89

















      ELDER ABUSE, NEGLECT, AND EXPLOITATION: ARE WE DOING ENOUGH?

                              ----------                              


                     WEDNESDAY, SEPTEMBER 24, 2003

                              United States Senate,
     Subcommittee on Crime, Corrections and Victims Rights,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:32 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Lindsey 
Graham, Chairman of the Subcommittee, presiding.
    Present: Senator Graham.
    Chairman Graham. Thank you all for coming. This is a very 
important subject very near and dear to my heart, and I think 
most Americans. We have distinguished panels today and I look 
forward very much to hearing from you, but we have some 
housecleaning to take care of.
    Is it Mr. Mihalko?
    Mr. Mihalko. Mihalko, right.
    Chairman Graham. And Mr. Huse, is that right?
    Mr. Huse. Yes.
    Chairman Graham. Would you please stand? I am going to have 
to swear you in. Raise your right hands, please.
    Do you solemnly swear the testimony you are about to give 
is the truth, the whole truth and nothing but the truth, so 
help you God?
    Mr. Mihalko. I do.
    Mr. Huse. Yes, I do.
    Chairman Graham. Take a seat. Again, I do appreciate both 
of you coming and look forward to hearing your testimony and 
having a little interaction with you.
    I have got a statement here from Senator Biden that I would 
like to make part of the record, and Senator Breaux and Senator 
Hatch. Senators Breaux and Hatch have been working on 
protection for our senior citizens for a long time. I want to 
recognize Senator Biden's interest and support.

 OPENING STATEMENT OF HON. LINDSEY GRAHAM, A U.S. SENATOR FROM 
                  THE STATE OF SOUTH CAROLINA

    Chairman Graham. A little bit about why I wanted to hold 
the hearing. In a previous life, before politics--it seems to 
me the more I am in it, the more I miss it, but in a previous 
life I was a lawyer and I had a chance to work several groups 
that were representing abused children in our family court 
system in South Carolina. Through that association, I found 
myself getting more and more involved in cases where our senior 
citizens were being abused financially, physically, and 
otherwise.
    I don't think most Americans realize how much of a network 
exists out there in the private sector trying to prey off the 
fears and concerns of senior citizens. We have criminal laws at 
the State and Federal levels to deal with that, but I don't 
think there has been enough attention and enough effort in 
combatting this growing problem.
    The reason for this hearing today is to get input from 
people on the panels and others to make sure we are on the 
right track, and if we can do more, we should do more. That is 
the purpose of the hearing, and I think there will be a lot of 
bipartisan support for any recommendations you have to make our 
world better for seniors. And for those who try to make a 
living exploiting seniors, there is not enough bad things we 
can do to them, in my opinion. So that is why we are all here 
today.
    With that little speech over, I would like to have Mr. 
Mihalko start off and make a statement to the Subcommittee, if 
you would like.

     STATEMENT OF DANIEL L. MIHALKO, INSPECTOR IN CHARGE, 
   CONGRESSIONAL AND PUBLIC AFFAIRS, U.S. POSTAL INSPECTION 
                   SERVICE, WASHINGTON, D.C.

    Mr. Mihalko. Thank you, Mr. Chairman, and I appreciate you 
holding this hearing on this very important issue of crimes 
against the elderly and giving us the opportunity to talk about 
the role of the United States Postal Inspection Service in 
combatting these crimes.
    There are countless illegal schemes that violate the 
Nation's first consumer protection law, the mail fraud statute. 
Back in 1872, it was enacted and it is still the most effective 
fraud enforcement weapon, and postal inspectors have been using 
it for over 100 years. Last year, we responded to over 84,000 
mail fraud complaints and we handed over 3,000 fraud cases, 
arresting 1,600 mail fraud operators. As a result of these 
investigations, there was over $2 billion in court-ordered and 
voluntary restitution, and this is only a portion of the 
financial impact on the victims, many of them senior citizens.
    Over the years, postal inspectors have used the mail fraud 
statute to investigate and prosecute all types of scams. With 
the advent of the telephone, of course, came telemarketing 
scams, and the Internet brought its own offerings. With these 
new communications vehicles, we have seen new twists on some 
old scams, but to us it is basically old wine in new bottles. 
Eventually, as part of the scheme, the mail is used, and when 
the mail is used, postal inspectors get involved.
    The elderly often become victims of mail fraud schemes 
because older citizens, the physically-challenged, the shut-
ins, rely on the mail to receive many of their purchases and 
they become easy prey for mail fraud operators. The problem is 
compounded when operators sell names and addresses of their 
victims to other criminal elements, resulting in the repeated 
victimization of many elderly.
    The same holds true for telemarketers. Many offers are 
legitimate, but unscrupulous telemarketers can be the smoothest 
of operators, successfully defrauding people out of their life 
savings. Losses attributed to telemarketing fraud are estimated 
to exceed $40 billion a year.
    Senior citizens are particularly vulnerable. Fraudsters 
recognize that many seniors are widowed and feel isolated. A 
telephone call from anyone is greeted with open arms. 
Experienced con artists know the buttons to push when they have 
a senior on the telephone.
    Because seniors are so vulnerable to these scams, postal 
inspectors have placed a high priority on investigating these 
fraud cases where seniors are victims. We have put together a 
video for the Subcommittee, and in this video victims and 
caretakers tell how this victimization happened to them. The 
last segment of this very short video shows the effectiveness 
of one of our crime prevention campaigns, where we were able to 
stop a senior from being victimized by sending $2,200 in a 
cross-border fraud initiative.
    Mr. Chairman, I would like to play that video for you.
    Chairman Graham. Please.
    [Videotape shown.]
    Mr. Mihalko. Mr. Chairman, we see these types of 
investigations, these types of cases, and these victim stories 
everyday. In the video, you saw some of the items that 
telemarketers sent to victims through the mail. In searches of 
telemarketers' places of business, we have discovered that the 
files they maintain on their victims contain intimate details 
of the victims' health, names of their children, vacation and 
travel memories, and even information on deceased spouses.
    Telemarketers, in particular, use this personal information 
when they call the victims. They will mention family names, 
inquire about someone's health, and they will very effectively 
portray themselves as being caring and knowledgeable. For the 
victims, these telephone calls may be their only regular 
contact with other people. Victims often even defend the fraud 
operators in the continued belief that they are friends who are 
trying to help them win a sweepstakes or manage investments. 
Some victims will even knowledge that the fraud operator is 
taking advantage of them, but explain that no one else has 
showed any interest in them.
    One particular technique used by mail fraud operators is to 
target those who are ill or in the early stages of dementia. We 
call it ``the check is in the mail'' type of a scheme. A 
telemarketer will call a senior posing as a representative of a 
local business or hospital and asked if they have paid their 
bill. Since a senior's memory may be poor, the victim often 
thinks they have forgotten about this bill and will promptly 
write a check and put it in the mail. Telemarketers know that 
seniors have large savings and retirement funds that they can 
draw on.
    Another scheme is the ``you have won'' scheme. It targets 
elderly victims who have previously participated in lotteries, 
sweepstakes, and other prize-winning opportunities. Fraudsters 
inform these seniors that they have won. However, some type of 
fee must be paid before the prize or check can be mailed. The 
victim receives nothing. The only one who wins is the scam 
artist.
    One of the most notorious scams against seniors is what is 
known as the reload. When fraud operators are successful in 
obtaining money from a victim, they often make an attempt to 
gain even more money. This is the reload. In a typical reload, 
the fraud operator contacts the victim again and alters the 
original scam or even presents a new scam.
    Sweepstakes winners may be told that their prize has been 
increased, but that additional fees are necessary to claim the 
new prize. Victims in fraudulent investment schemes may be 
convinced to invest more money or to convert their investment 
to another market product, like you saw in the video where the 
lady went from silver to gold. Usually, what they are getting 
is worth less than what they ordered in the first place.
    Fraudulent telemarketers network with each other; they sell 
lists of targets to each other. If a telemarketer knows a 
particular senior has fallen victim to a scam, they will call 
the senior, posing as either an attorney or a law enforcement 
official, and advise that they have arrested the con artist and 
seized their money. The money is either in a State fund or 
being held by the courts, according to this person. Scam 
artists will then request another fee to release the funds to 
the victim, and in doing so steal from the victim once again.
    The impact on seniors can be devastating on two fronts. 
Many pay an emotional cost, losing not only their money, but 
also their self-respect and dignity. We have interviewed 
victims who claimed they couldn't remember sending anything to 
the operators or, out of embarrassment, minimize the level of 
victimization they experienced.
    Criminal prosecution is an important element in our fraud 
program, but it is not the only tool. We work hard to protect 
consumers by educating them about current fraud schemes so they 
don't become victims. I would like to finish up by telling you 
about a couple of different prevention programs that we have 
done.
    In 1999, we sent this postcard to every household in the 
country, over 123 million addresses, under Project know Fraud. 
The card contained telemarketing fraud prevention tips, a Web 
address, and a toll-free number to call for additional 
information or to report a fraud. It was the largest fraud 
prevention campaign ever attempted.
    National Fraud Against Senior Citizens Awareness Week was 
kicked off last August by postal inspectors. ``Don't let one 
phone call take it away'' fraud awareness posters, as you see 
over here on the easel, were posted at all 38,000 post offices 
around the country. We took out ads in major metropolitan 
newspapers. PSAs featuring Betty White were broadcast on 
television and radio, and fraud awareness flyers were mailed to 
roughly 3 million households of seniors and their families. The 
campaign brought immediate success, as you saw in the last clip 
on the video.
    I think what is particularly important is the message; it 
was very compelling and on-target to our seniors. I am not sure 
if you can read it on the poster, but it says ``He lived 
through two world wars and fought in one. He helped raise six 
children and three dogs. He saved a long time for his 
retirement. Don't let one phone call take it away.''
    Just last week, postal inspectors unveiled a national 
consumer awareness campaign on identity theft, known as 
Operation Identity Crisis. The campaign focuses on the ease 
with which identity theft occurs unless consumers take steps to 
prevent it. The campaign features posters, again, in all post 
office lobbies, newspaper ads, a mailing, and a PSA with Jerry 
Orbach, the actor from ``Law and Order,'' who is also a victim 
of identity theft.
    You have all heard the saying ``crime doesn't pay,'' but in 
this case it does. All of these campaigns have been paid for by 
a unique funding arrangement where we use monies received from 
criminal fines and forfeitures in cases where victims could not 
be identified. It will be paying for Postal Inspection Service 
PSAs, crime prevention videos, and brochures like these that we 
put out on a regular basis.
    Our mission is clear, to protect Postal Service employees 
and customers from criminal attack, and to protect the Nation's 
mail system from criminal misuse. We take this mission 
seriously. We will continue to protect seniors from scam 
artists and ensure that the American public continues to have 
confidence in the U.S. mail.
    Thank you.
    [The prepared statement of Mr. Mihalko appears as a 
submission for the record.]
    Chairman Graham. Well done. Thank you very much.
    Mr. Huse.

  STATEMENT OF JAMES G. HUSE, JR., INSPECTOR GENERAL, SOCIAL 
           SECURITY ADMINISTRATION, WASHINGTON, D.C.

    Mr. Huse. Good afternoon, Mr. Chairman. Thank you for the 
opportunity to discuss with you today some of the scams 
perpetrated against the Nation's seniors and some of the 
actions my office has undertaken to detect them or prevent them 
from occurring in the first place.
    For over 60 years, the words ``Social Security'' have held 
special meaning for elderly Americans. So when mail arrives at 
their doorstep with the official Social Security seal or 
references to Social Security, many seniors respond 
reflexively.
    Today, I will describe some of the investigations we have 
conducted into organizations and individuals that misuse the 
Social Security Administration's name and exploit the special 
bond between SSA and its beneficiaries. These cases represent 
one of our highest investigative priorities, and I would like 
to describe just three significant cases that have received our 
attention this past year. These cases are brought under 
authority of Section 1140 of the Social Security Act, which 
provides the Commissioner of Social Security with authority to 
impose significant civil monetary penalties. The commissioner 
delegated that authority to the inspector general in 1995.
    The first case concerns an individual in Texas who was 
producing mass mailers containing what are referred to as lead 
cards for the insurance industry. These cards, enclosed in 
mailers that advertise such products as private burial 
insurance, urge seniors to fill out the card with their 
personal information and return the card to the sender. We all 
receive junk mail and don't hesitate to throw it out in the 
trash, but when the recipient is a senior and when the outside 
of the mailer contains the words ``Social Security Benefits 
Update,'' as these did, most seniors will open the mailer.
    These mailers are designed to elicit a belief that the 
recipient by filling out the card with sensitive personal data 
will receive important information about Social Security 
benefits. Instead, their information is sold as an insurance 
lead to a private company for purposes of soliciting the sale 
of private insurance. Other untoward things can happen to that 
information, too.
    Working with the United States Attorney for the Northern 
District of Texas, our attorneys issued a civil monetary 
penalty and obtained an injunction against this individual. A 
search of his business premises revealed that he was sending 
out tens of thousands of these mailers each week. The court 
order we obtained froze his financial accounts, allowed for the 
interception and opening of his mail, and essentially shut down 
his business. Shortly thereafter, a settlement was reached in 
which a penalty was paid to the Social Security trust funds and 
the individual's business was closed permanently.
    The second case occurred in San Antonio, where another 
individual was running a company that sent similar lead cards 
to seniors. The San Antonio mailers depicted the company's 
logo, a stylized image of the United States Capitol, and were 
otherwise designed to resemble official Government documents. 
On the back of many of the mailers were listed the titles of a 
number of official Social Security informational brochures that 
the company offered free of charge.
    While the company alleged that this was a public service, 
it was, in fact, a rouse intended to mislead seniors into 
thinking that they were giving their personal information to 
Social Security, not to a private lead card company. A civil 
monetary penalty was imposed and has since been upheld by the 
departmental appeals board of Health and Human Services, and 
also by the Commissioner of Social Security.
    Most recently, our imposition of a penalty in excess of 
$500,000 against a national political organization was upheld 
by an administrative law judge. The organization's political 
mailers were contained in envelopes bordered in red and white 
stripes with the words ``Social Security Alert'' repeated 36 
times and the words ``Urgent-Social Security Information 
Enclosed'' in permanent bold typeface.
    The organization took the position that they did not intend 
to mislead seniors into believing that the mailers originated 
with the SSA, and further alleged that the mailers would not 
have a misleading effect. The administrative law judge 
disagreed, upholding the imposition of the $500,000 penalty.
    Our efforts in this area extend back to 1995, and the 
reduction in complaints from seniors is a testament to our 
success in this area. In our criminal investigative work, we 
consistently find examples of senior citizens being victimized 
by unscrupulous identity fraudsters and the like. We will 
continue to do everything in our power to protect seniors from 
being victims of these types of scams and those who would 
misuse their identity and Social Security benefits.
    Thank you, sir, and I would be willing to answer any 
questions.
    [The prepared statement of Mr. Huse appears as a submission 
for the record.]
    Chairman Graham. Thank you both.
    Inspector Mihalko, you talked about the budget in terms of 
informing people about what to watch for. What is the budget? I 
mean, how much money do you spend each year doing the ads and 
the mailers?
    Mr. Mihalko. One of the unique things about this consumer 
fraud fund is by way of a fraud case that we worked out in the 
Midwest last year, the judge earmarked $15 million to come to 
the Postal Inspection Service just to work and use on fraud 
prevention campaigns. So right now, we are starting off with 
$15 million just in this fund. These campaigns are being paid 
for out of this fund. We are working on some consumer 
protection-type videos. We have hired a production company to 
do these types of things.
    So we have $15 million. That doesn't include what we may 
get out of cases that we are working right now, some different 
fines in different mail fraud cases, and the forfeitures where 
we can't really get the money back and make restitution to 
individual victims for whatever reason it may be. So we do have 
quite a bit of money in this fund to go out and do these 
prevention campaigns, and we feel these prevention campaigns 
are very critical for this type of crime.
    Chairman Graham. I totally agree with you. Do you think you 
have enough money in place and enough money coming to do the 
job in the near future?
    Mr. Mihalko. I think we do, for the near future, yes. With 
this consumer fraud fund funding these programs, we have a lot 
of good ideas that we want to get forward. We have a lot of 
partners in some of these programs that we are putting forth.
    Again, I think this type of crime really lends itself to 
consumer protection and crime prevention. Fraud is unlike 
crimes of violence. If somebody comes up to you and points a 
gun at you and says, I want your money, you don't have much 
choice in that matter; you are going to give them your money. 
You can't say to them, let me think about this, let me get back 
to you tomorrow, let me check you out, whereas with fraud you 
can do that.
    If the solicitation comes in through the mail, you have an 
opportunity to read it in the comfort of your home. You can 
look at it, you can make decisions. You can contact us, the 
Better Business Bureau, any other agencies to check out the 
company. The same way with the phone call that comes through 
from a telemarketer; you have a choice, you decide whether or 
not you want to become a victim or be a part of this crime.
    You can hang up the phone. You can tell the telemarketer, 
let me call you back, let me check you out, let me check your 
business records out with the Better Business Bureau, let me 
check with the postal inspectors, the FTC. You can ask a lot of 
questions before you get involved in these types of crimes. So 
we feel that the use of monies to come up with these prevention 
programs is very effective.
    Chairman Graham. I totally agree.
    If someone mails the material from overseas, what happens?
    Mr. Mihalko. Well, that gets to be a little trickier. The 
mail fraud statute is very effective for domestic crimes. It 
doesn't give us the reach to go overseas.
    Chairman Graham. Is that a problem?
    Mr. Mihalko. It is somewhat of a problem. We are in such a 
global economy now and these fraudsters really don't have any 
boundaries. You have the telemarketers who, all they need is a 
telephone and they can be anywhere calling our seniors in this 
country and victimizing them. The same way with the Internet. 
So it does present somewhat of a problem because we are not 
able to really go after these folks. We rely on law enforcement 
agencies in the foreign countries to help us out. But what is 
even worse is we are not able to use any of the forfeiture laws 
in this country to try to get those assets that they steal from 
our people.
    Chairman Graham. Is there any way you can think of to 
change that? Are there any ideas that you have?
    Mr. Mihalko. One of the things that is of great interest to 
the foreign governments is money laundering. Some of the 
countries don't have mail fraud statutes, per se, but money 
laundering is kind of a hot button with them and if we can tie 
in some of these parts of a mail fraud scam--for example, if a 
senior in this country--like you saw in the video, the lady was 
going to mail a $2,200 check to a Canadian telemarketer. If we 
can use that particular mailing to make that part of the money 
laundering charge, I think we would very much get the attention 
of the foreign governments to assist us in trying to take the 
assets away from these folks that are scamming our people.
    Chairman Graham. Is there any particular country where the 
problem is worse compared to other countries?
    Mr. Mihalko. I don't know if there is one particular 
country, although we do see a lot of telemarketers coming from 
Canada and we are working very closely with the Canadian 
authorities. We have established through the Department of 
Justice a cross-border fraud initiative, or with the Royal 
Canadian Mounted Police, and we have been effective there.
    But once again, if the money goes from our citizens to 
Canada and then it gets shipped overseas to a European account, 
laundered through the Caymans, and then even back into the 
United States, we don't have the reach to go after those 
assets.
    Chairman Graham. Well, is there any particular wish list 
that you would like to give me today about what we could do to 
better enhance your success rate?
    Mr. Mihalko. I think that might be something we would be 
willing to work with the staff on and try to figure out how 
we--
    Chairman Graham. You put it together and we will try to 
punch as many holes in it as we can. So my offer stands, and I 
appreciate what the Postal Service is doing. It must be very 
satisfying work, I would think, to get your hands on some of 
these people.
    Mr. Mihalko. Yes, it is. Thank you.
    Chairman Graham. Mr. Huse, you talked about three cases 
that really struck me as a bad thing to do to someone, because 
people live in fear of that Social Security check being 
manipulated or changed and that is their livelihood. Every case 
was resolved in some civil matter. Why not criminal action?
    Mr. Huse. In each of those instances, Mr. Chairman, we look 
at the criminal potential in those cases, too, but a lot of 
times these don't violate criminal statutes. We work closely 
with the United States Attorneys' offices in each of those 
jurisdictions to get to where we would impose our civil money 
penalty.
    Chairman Graham. So it is not a crime to try to manufacture 
what would appear to be a Government document to mislead 
somebody?
    Mr. Huse. Well, it is something in similitude to a 
Government document. And the answer is, no, it is not a crime, 
but it is something that we can sanction from an administrative 
perspective.
    Chairman Graham. Is there any effort to make it a crime?
    Mr. Huse. That, I think, has been something that has been 
in potential for some time, but the problem you push up 
against, of course, is the First Amendment issues that are 
always an aspect of us trying to find criminal remedies against 
some of these practices. And these are only a sample of what we 
deal with everyday.
    Chairman Graham. Well, I would be very interested in 
working with your staff to see if we can take it to the next 
level.
    Mr. Huse. We would be delighted to work with you on that.
    Chairman Graham. The more pain, the less people are likely 
to do this.
    Inspector, is the punishment scheme satisfactory from your 
point of view to deter this once you catch somebody?
    Mr. Mihalko. Yes, the mail fraud statute is pretty 
effective. It is a 5-year charge, up to 5 years in prison for 
each mail fraud count, and up to $250,000 in fines. So it is a 
great statute. It is over 100 years old. It has been tweaked 
just a little bit, but we find it to be extremely effective.
    Chairman Graham. Does it apply to telemarketing?
    Mr. Mihalko. Well, there is mail fraud and wire fraud.
    Chairman Graham. The mail follows the conversation, yes.
    Mr. Mihalko. Almost every one of these telemarketers 
involves the use of the mail at some point.
    Chairman Graham. What if someone was called on the phone 
and they just made a wire transfer of money? Would you have a 
problem there?
    Mr. Mihalko. We still work those types of cases, yes. If we 
get the complaint, we are going to follow through.
    Chairman Graham. Well, Mr. Huse, what would your wish list 
be? If you need some time to make it up, the offer stands for 
you, also.
    Mr. Huse. Well, Mr. Chairman, the title of this hearing, 
``Crimes Against the Elderly,'' really kind of embraces what we 
do for a living at the Social Security OIG. With the client 
base that we have of those American citizens who receive Social 
Security benefits, many of them are elderly. So it is not just 
limited to these kinds of schemes. We have those elderly 
beneficiaries who are in nursing home care facilities that are 
covered by representative payees who also are subject to our 
scrutiny and focus and are defrauded sometimes by those, and we 
have testified before Congress on those issues. And then the 
Social Security number itself, its integrity, is our prime 
responsibility, and that is the keystone to identity fraud in 
this country, since it is our ad hoc national identifier.
    So I do have a wish list, to get to the point. Presently, 
in this Congress, there are two bills that originated with the 
Social Security Subcommittee in the House. H.R. 743 has 
provisions in it that would strengthen some of the civil money 
remedies we have. And also in the identity fraud area the 
Social Security Protection Act, and that might be a general 
title, but H.R. 2971, when it comes to the Senate, definitely 
is something that would help us.
    Chairman Graham. Well, we will keep our eyes and ears open 
for that, but my offer stands about trying to take some of 
these civil aspects and make them criminal, if that is at all 
possible.
    Mr. Huse. We welcome that. We will work with you closely on 
that.
    Chairman Graham. No pun intended, pushing the envelope 
here, okay?
    Well, thank you both very much for your testimony.
    Mr. Huse. Thank you, Senator.
    Mr. Mihalko. Thank you.
    Chairman Graham. Thank you very much.
    I have for the record statements from Senators Grassley and 
Leahy that we will introduce, and appreciate their concern.
    Well, thank you all. One administrative matter. I hate to 
get you right back up, but if you will stand just for a second, 
I will swear you in, if you don't mind. Raise your right hands.
    Do you solemnly swear that the testimony you are about to 
give is the truth, the whole truth and nothing but the truth, 
so help you God?
    Mr. Chiles. I do.
    Mr. Wright. I do.
    Mr. Holbrook. I do.
    Ms. Stiegel. I do.
    Chairman Graham. If you could quickly introduce yourselves 
for the record for me to get to know you better, then we will 
start taking testimony from my left to the right.
    Mr. Chiles. Senator, I am Chris Chiles. I am the 
prosecuting attorney from Cabell County, West Virginia, here on 
behalf of the National District Attorneys Association.
    Mr. Wright. I am Jim Wright, representing the National 
Sheriffs' Association, and I run the Triad program there.
    Chairman Graham. Thank you, sir.
    Mr. Holbrook. Senator Graham, I am Doug Holbrook, a member 
of the board of directors of AARP.
    Chairman Graham. Thank you, sir.
    Ms. Stiegel. Senator, I am Lori Stiegel, from the American 
Bar Association.
    Chairman Graham. Thank you all. Thank you very much for 
coming. We look forward to hearing from you.
    Mr. Chiles, would you like to start?

STATEMENT OF HON. CHRISTOPHER D. CHILES, PROSECUTING ATTORNEY, 
  CABELL COUNTY, WEST VIRGINIA, AND VICE PRESIDENT, NATIONAL 
      DISTRICT ATTORNEYS ASSOCIATION, ALEXANDRIA, VIRGINIA

    Mr. Chiles. Thank you, Senator. As I said, my name is Chris 
Chiles and I am the elected prosecuting attorney in Cabell 
County, West Virginia. I am honored to serve as Vice President 
of the National District Attorneys Association, and I want to 
thank you on behalf of the NDAA for the opportunity to present 
our concerns on elder abuse, neglect, and financial 
exploitation.
    To place my remarks in context, let me briefly tell you 
about my jurisdiction. Cabell County has a population of almost 
100,000 people, with some 16 percent being over the age of 65 
years. I currently supervise a staff of 8 full-time and 2 part-
time assistant prosecuting attorneys. Annually, my office 
prosecutes several hundred felony cases, almost 7,000 
misdemeanor cases, and over 800 juvenile cases.
    Before I begin my remarks, Senator, I would ask that my 
complete testimony be included in the record, and I would also 
request that the National District Attorneys Association's 
policy entitled ``Policy Positions on Elder Abuse, Neglect, and 
Financial Exploitation'' be included in the record.
    Chairman Graham. Without objection, it will be so ordered.
    Mr. Chiles. Thank you, sir.
    Since 1986, the board of directors of NDAA has been 
concerned about elder abuse. In that year, they adopted a 
resolution on elder abuse, stating that vast numbers of our 
country's elderly citizens have silently endured physical 
trauma, financial devastation, and emotional distress because 
they have been victimized by anonymous criminals, or perhaps 
worse by one's trusted caretakers or family members.
    Just as the criminal justice system has rightly recognized 
that child abuse can be curbed by the enactment of new laws and 
the use of special procedures, so too should the system be 
amenable to changes on behalf of our growing elderly 
population. Since then, NDAA has worked to make this resolution 
a viable concept.
    Now, Senator, we have just heard about the problem of 
financial exploitation of the elderly. I have prosecuted many 
of those types of cases and have some pending right now. It is 
a serious problem, but I would like to talk to you now about 
physical abuse and neglect of the elderly.
    I want you to realize that it could be your father who gets 
mugged when he comes out of the grocery store with a bag 
groceries and is unable to defend himself. It might be your 
mother, in her 80's or 90's, who is still able to live alone 
and proud of the fact that she is still able to care for 
herself, who has her house broken into one night and is 
sexually assaulted, vaginally and anally, before being 
strangled to death and not found until the next evening. I have 
a case just like that which is pending right now.
    Or maybe it is someone who thinks that they are still able 
to care for themselves and make proper decisions about their 
well-being, but really isn't, and let's someone, perhaps a 
stranger or perhaps a relative with a drug problem, move in 
with them to help take care of them who ends up stealing from 
them or physically abusing them.
    These abuses happen everyday somewhere in this country, and 
not enough is being done to stop it and successfully prosecute 
these predators. Elder abuse is an ever-growing problem and it 
comes in many different forms. The problem is similar to that 
which we faced with child abuse not that many years ago. Not so 
long ago, no one wanted to believe that a family friend, a 
parent, a grandparent, or a teacher would ever harm, much less 
sexually abuse, a child. A child victim did not know who to 
tell when it did happen, or was reluctant to tell because it 
was a loved one who abused them. Or they didn't think anyone 
would believe them, or they thought it was their fault that 
this happened to them. It took years of educating the public 
and training our prosecutors and police that unfortunately this 
does happen and what has be done to stop it.
    The same thing is true today with elder abuse. We as a 
society do not want to believe anyone, especially a family 
member or a caregiver, would harm or neglect our parents or 
grandparents. Similarly, our elders are afraid to disclose 
abuse or neglect for a variety of reasons. Just as we have 
found it difficult to convince a jury that a parent could harm 
a child, we are finding that it is equally hard to convince 
them that a child could harm their father or mother.
    As prosecutors, we have a lot to learn about protecting our 
elderly. We need to recognize the special needs of elderly 
victims and witnesses. We need to learn the specialized 
forensic issues that are involved with elderly victims, and we 
need to learn the trial skills that will successfully ensure 
that justice is achieved for the elderly. As importantly, we 
need to become leaders in our communities in protecting our 
elderly and educating ourselves, but the police, EMTs, medical 
personnel, and the public about elder abuse and neglect.
    In closing, Senator, I would commend to your review the 
Elder Justice Act, Senate bill 333, coauthored by Senator 
Breaux and Chairman Hatch, and many of the members of this 
Committee have joined as sponsors. The National District 
Attorneys Association has gone on record as supporting this 
bill for what it represents to our parents and grandparents.
    We cannot as a society, and especially as those charged 
with protecting all our citizens, especially our elders, allow 
this abuse and neglect to continue unabated. On behalf of 
America's prosecutors, I and the National District Attorneys 
Association urge you to take steps to provide Federal 
assistance to our efforts to fight abuse, neglect, and 
exploitation of the elderly. We look forward to continuing to 
work with you on addressing this growing problem.
    [The prepared statement of Mr. Chiles appears as a 
submission for the record.]
    Chairman Graham. Thank you, Mr. Chiles.
    Mr. Wright.

 STATEMENT OF JAMES A. WRIGHT, NATIONAL SHERIFFS' ASSOCIATION, 
                      ALEXANDRIA, VIRGINIA

    Mr. Wright. Thank you. Good afternoon, Mr. Chairman, and 
thank you for the opportunity to offer comments. I am here to 
represent the National Sheriffs' Association as the Director of 
Triad, a program that serves seniors all across the country.
    Having spent my entire adult life in law enforcement, 
retiring at the rank of captain from the Metropolitan Police 
Department in Washington, D.C., I have firsthand knowledge of 
the devastating effect that abuse, neglect, and exploitation 
can have on the elderly.
    Oftentimes, elderly victims of crime do not report their 
victimization to authorities. One of the most common reasons 
seniors give for not calling law enforcement is that they are 
afraid of the perpetrator, who is often known to the victim. In 
cases of financial exploitation, seniors cite the fact that 
they do not want their adult children or caretakers to know 
that they have been defrauded, primarily because the senior 
fears losing his or her financial independence.
    In many cases, the persons abusing or exploiting the 
elderly are their own children, grandchildren, or trusted 
advisers. Such victimization raises enormous uncertainties in 
the minds of seniors, making them more likely not to report the 
incident.
    When victimized, seniors often feel there is little that 
can be done to assist them, knowing that in many cases the 
perpetrator is in another State, or even another country, and 
may never be brought to justice. Restitution may not be likely, 
but revictimization is. Prevention, then, is not the only 
option, but is by far the best option.
    In the late 1980's, at the beginning of the community 
policing movement in America, representatives from three 
national organizations came together to address the issue crime 
safety for seniors. The American Association of Retired 
Persons, now AARP, the International Association of Chiefs of 
Police, and the National Sheriffs' Association joined together 
to form Triad, and the name Triad is simply representative of 
the group of three.
    In its simplest terms, Triad is a concept of partnership. 
Its goals were and are to reduce crimes committed against 
seniors and to reduce the unwarranted fear of crime that 
seniors often experience. Since Triad's inception, more than 
800 counties throughout 47 States have signed Triad agreements.
    After establishing the Triad agreement, a SALT council is 
formed to develop and implement programs and activities. SALT 
is an acronym for Seniors and Law Enforcement Together, and it 
is made up of community representatives. Since being founded 15 
years ago, the number of partners has increased dramatically. A 
local Triad in the year 2003 is far more inclusive than ever 
before, and now a Triad is likely to include representatives 
from sheriffs' offices and police departments, Federal law 
enforcement, fire departments, EMS, the faith community, senior 
volunteers organizations such as AARP and RSVP, State and 
county prosecutors, district attorneys, State attorneys 
general, area agencies on aging, adult protection, social 
services, hospitals. Even banking institutions participate in 
Triad.
    Programs fit local needs, and one example is an RUOK 
program where shut-in seniors or seniors with limited mobility 
are contacted each day by other volunteers simply to ascertain 
if they are okay. Another program, Senior Visitation, has 
deputies and officers periodically visiting seniors in their 
homes just to spend some time and to chat with the seniors. 
Some other Triad programs are senior education, senior fares, 
senior lectures on fraud, financial abuse, and other crimes.
    Triad is one way for law enforcement personnel to be in 
frequent contact with the elderly. The value of this 
interaction between law enforcement and seniors cannot be 
overstated. Such contact opens communication and allows trained 
law enforcement personnel to recognize patterns and trends, and 
to witness situations where seniors are being victimized or are 
potential victims.
    An important benefit is that when law enforcement officers 
observe these situations, they can intervene and either prevent 
a crime or initiate an investigation. This, in turn, removes 
the weight of having to decide whether or not to file a report 
from the senior. Such communication works the other way as 
well, in that it gives seniors the opportunity to pass along 
important information to the police about potential suspicious 
activity, such as terrorism or drug- or gang-related activities 
that are in their neighborhood.
    So it seems to me, Mr. Chairman, that the question is not 
only whether or not we are doing enough to protect our Nation's 
elderly, but also whether those things we are doing are 
effective. Triad, like Neighborhood Watch, is there for the 
asking. These programs can be replicated in communities all 
across the country or can be modified to fit individual 
community needs.
    Triad programs help ensure that law enforcement, criminal 
justice professionals, and volunteers coalesce their energy so 
as to reduce crime against the elderly. Senators Rod Grams and 
Evan Bayh sponsored legislation that passed Congress 
unanimously authorizing Federal funding for the Triad program, 
and while it has been funded in fiscal year 2003, it does not 
appear that it will be funded in fiscal year 2004. The National 
Sheriffs' Association and those of us committed to Triad will 
continue to work to increase the number of communities 
utilizing this grass-roots community-oriented program.
    I sincerely thank the Committee for the opportunity to 
offer comments and for its willingness to address this 
important issue. I would be pleased to respond to any 
questions.
    Chairman Graham. Mr. Wright, thank you for coming. I 
understand that you gave up an annual meeting trip to Minnesota 
to be here. Is that correct?
    Mr. Wright. Yes, sir.
    Chairman Graham. Well, thank you for doing that. It has 
been very helpful. Before going to the next witness, what was 
the budget last year for Triad?
    Mr. Wright. One million dollars.
    Chairman Graham. And it is not in this year's 
appropriation?
    Mr. Wright. No, sir, not yet.
    [The prepared statement of Mr. Wright appears as a 
submission for the record.]
    Chairman Graham. Mr. Holbrook.

 STATEMENT OF DOUGLAS C. HOLBROOK, MEMBER, BOARD OF DIRECTORS, 
   AMERICAN ASSOCIATION OF RETIRED PERSONS, WASHINGTON, D.C.

    Mr. Holbrook. Thank you, Mr. Chairman, and good afternoon 
again. I am Doug Holbrook, a member of the AARP board of 
directors. On behalf of AARP, I want to thank the Crime 
Subcommittee for convening this hearing to assess the Nation's 
effort to combat elder abuse, neglect, and exploitation.
    At this time, I would like to request also that our 
complete testimony be included in the record.
    Chairman Graham. Without objection.
    Mr. Holbrook. State and national attention to elder abuse 
concerns is strongly supported by AARP members and older 
Americans generally. Our members tell us that protecting 
themselves and their loved ones from abuse and fraud is one of 
their major concerns.
    The risk of harm is real, and that risk is growing with the 
dramatic increase in the number of people living into advanced 
old age. Engaging all sectors of society in the fight against 
abuse, neglect, and exploitation is essential. Elder abuse is a 
hidden problem. Only the most visible and recurring cases get 
reported. Like an iceberg, the bulk of the problem remains 
hidden from view.
    Despite underreporting, there has been a very substantial 
increase in the number of official reports of domestic elder 
abuse. Between 1986 and 1996, the number of reports rose from 
117,000 to 293,000, an increase of 150 percent. The number is 
expected to continue to rise in the future.
    Developing the support services and enforcement network to 
meet the needs of a large number of potentially vulnerable 
persons poses a significant challenge. Current laws addressing 
elder abuse and our system of protective services are far from 
perfect. Not long ago, it was difficult, if not impossible, to 
get an abuse case investigated or prosecuted. Fortunately, that 
situation has changed, but there is still a great need for 
specialized knowledge that will allow successful prosecution 
and encourage further development of case law. We would like 
for you to see our full statement for examples of the many gaps 
in the network of services for the abused.
    Recognizing the need for a coordinated approach to the 
problems of abuse and neglect, AARP joined a number of 
organizations in supporting the Elder Justice Act of 2003. This 
legislation would greatly enhance the Federal Government's 
ability to partner with States and communities to develop the 
tools needed to ensure safety of the most vulnerable citizens.
    While advocating strongly for Federal proposals like the 
Elder Justice Act, AARP recognizes the need for ongoing efforts 
at the State level to improve public awareness, the quality of 
investigations, and enforcement in cases of abuse and neglect. 
These efforts are particularly important in periods where we 
have fiscal austerity.
    Enforcement and prosecution play a key role in redressing 
abuse and neglect after they have occurred. But just as 
important is the role of prevention. Early detection of warning 
signs through the encouragement of wider reporting and 
community policing can make a critical difference.
    Also, AARP has historically been concerned about financial 
fraud--the fastest growing form of abuse. The main hurdles to 
successful prosecution of these crimes are getting the cases 
reported to law enforcement, having them thoroughly 
investigated, and obtaining timely and appropriate prosecution.
    Financial exploitation has many disguises, causes, and 
forms of expression, but the common thread of its many methods 
is an effort by unscrupulous persons to extract money and 
resources through a variety of ways. AARP is addressing the 
problem through programs that educate members, families, 
professionals, and potential victims.
    Some AARP initiatives include daily money management. This 
helps older persons who are losing their ability to handle 
their finances to find someone to help them manage their 
money--a very successful program. Financial education projects 
expand financial awareness and enable participants to evaluate 
the trustworthiness of supposed advisers and experts.
    Colorado Elder-Watch protects older adults from the 
financial exploitation of telemarketers and other forms of 
identity theft schemes. Campaign Against Predatory Lending 
advocates legislative reform, pursues precedent-setting 
legislation, and offers education to homeowners regarding what 
to watch for in borrowing against the equity in their homes.
    Consumer universities may offer presentations by local 
legal experts to avoid being exploited in the financial 
marketplace; legal clinics and attorney training seminars; use 
of the AARP media, including The Bulletin and AAPR-The 
Magazine, reaching over 34 million homes. Research by the AARP 
Public Policy Institute on consumer financial and fraud issues 
includes pre-need funeral and burial arrangements, identity 
theft, and the regulation of home improvement contractors and 
sub-prime mortgage lending.
    Senator Graham, AARP appreciates your leadership and 
efforts to assure the safety and well-being of older American 
citizens. We look forward to working with the Committee, with 
your staff, the administration, and any other group concerned 
toward solving this very important problem.
    Thank you very much.
    [The prepared statement of Mr. Holbrook appears as a 
submission for the record.]
    Chairman Graham. Thank you, Mr. Holbrook. I really 
appreciate what AARP is doing. I know you all spend a lot of 
time and money on this, and it is very valuable to us all.
    Ms. Stiegel.

    STATEMENT OF LORI A. STIEGEL, ASSOCIATE STAFF DIRECTOR, 
    COMMISSION ON LAW AND AGING, AMERICAN BAR ASSOCIATION, 
                        WASHINGTON, D.C.

    Ms. Stiegel. Chairman Graham, thank you again on behalf of 
the American Bar Association for inviting us to be here today. 
I work for the ABA's Commission on Law and Aging, and for the 
past 10 years have directed all of our elder abuse activities.
    You have already heard, and you had already mentioned that 
elder abuse is a crime. When I talk about elder abuse, I am 
specifically referring to that committed by family members, 
caregivers, and trusted others, not by strangers or the 
predators whom we heard about from the earlier panel.
    Some case examples are always important. In your own State, 
a son was convicted for having allowed his mother to rot to 
death from bed soars that were embedded with bobby pins and 
roiling with maggots.
    In Delaware, another example occurs where a nursing home 
aide was convicted for hanging a resident's baby doll by a 
noose from the ceiling of the resident's room. The aide knew 
that this resident had dementia and honestly believed that this 
baby doll was her live baby. These are two examples of the kind 
of cases that happen everyday in every State across this 
country.
    Elder abuse is clearly a crime, but it is only fairly 
recently that we have begun to respond to it that way instead 
of only looking at it as being a family problem, a social 
problem to which social and human services responded. So as a 
result, we are really at the forefront of having the criminal 
justice system understand and respond to these cases.
    My co-panelists have talked about the need for training of 
prosecutors and law enforcement, but the needs and the gaps go 
far beyond that. Judges need training on these issues. Civil 
lawyers need to understand that this is a criminal issue, and 
the criminal law needs to understand that it is a civil issue 
as well. Adult protective services workers need to understand 
that they need to co-refer and cross-refer these cases to law 
enforcement and others. The gaps in the system are tremendous 
just in terms of the basic knowledge and understanding of 
working with each other.
    In addition, the science isn't there very often to prove 
that elder abuse has occurred in many of these cases. Whereas 
with children we know that certain types of injuries are only 
caused by abuse, we don't yet have that science to understand 
that for elder abuse, and we really need it for the criminal 
justice system to respond appropriately.
    You have heard, and I would agree, that elder abuse is very 
complex because of the range of people who commit it, that 
being family members, caregivers, trusted others. That makes it 
so much more difficult for elder victims to turn to the system 
for help. The shame and stigma they face is even greater than 
when the problem has been conducted by a stranger.
    We know that this impact is so serious on individuals. What 
we don't know is how serious is the impact on society. We know 
there must be social costs, but nobody has studied that yet, 
and the National Research Council study panel noted that in its 
recent report on elder abuse, neglect, and mistreatment.
    Let me offer to you some suggestions and things on which 
the ABA has policy that we would like to see happen. We believe 
there is a need for a nationwide structure for raising public 
awareness, supporting research, providing training and 
technical assistance, funding critical services, including 
prosecution, adult protective services, and legal services, and 
coordinating the resources among the States, territories and 
national levels.
    We believe there is a need to develop and implement 
specialized training about elder abuse for all components of 
the justice system. We believe there is a need to establish 
Federal leadership to ensure that adult protective services and 
legal and other services are of sufficient quality to protect 
and serve victims of elder abuse. There are numerous Federal 
employees who work on issues of child abuse and domestic 
violence. There is not one full-time Federal employee working 
on the issue of elder abuse.
    There is a need for broad-based, multi-disciplinary task 
forces and coalitions in each State to examine and develop 
systemic approaches to elder abuse interventions. Your own 
State is an example of where there is a State adult protection 
coordinating council that is doing wonderful work.
    We would like to see a multi-disciplinary research agenda 
sustained, advanced, and assessed. The National Research 
Council just developed a wonderful agenda. Now, it needs to be 
funded and implemented. We would like to see resources for 
preventing and responding to elder abuse, and adequate tools 
and services to enable capacity assessments for victims of 
elder abuse because the capacity is often an issue in so many 
of these cases, and critical to successful prosecution. Again, 
we would like to see legal and other services more readily 
available to meet the immediate and crisis needs of victims.
    There are a lot of wonderful things happening already 
across the country, but those efforts are intermittent and 
often very depend just on one person's interest and commitment 
to the issue. When that one person leaves, the interest goes 
away. So we need to see it become more institutionalized.
    Thank you for the opportunity to testify today.
    [The prepared statement of Ms. Stiegel appears as a 
submission for the record.]
    Chairman Graham. Thank you all.
    We will just start with you on that note. One of the 
benefits, hopefully, of the Senate legislation--I think it is 
333, the Elder Abuse Act?
    Ms. Stiegel. Yes.
    Chairman Graham. One of the hopes is it will create a 
system sort of like the Violence Against Women Act and other 
Federal legislation that sort of gives focus to it. But if you 
could get back to me with what you would like to see changed or 
improved--I don't know if you had had a chance to look at it, 
but some of your requests maybe could be molded into the Act, 
because that seems to be the best vehicle in the short term.
    If we could pass this thing, I think it would be a huge 
leap forward. No pun intended, but we are in the infancy of 
addressing this problem nationally; we really are. In my time 
as a lawyer, it got to be something I heard about, but never 
really thought about that much because you are always focused 
on children. But you will find in some of those families that 
you have an abuse problem that goes beyond just children.
    So I would very much like to institutionalize this, so that 
is maybe where the ABA could help us. If you would go over the 
legislation and give us some input on the Subcommittee on how 
we could make some changes, I would appreciate it.
    Mr. Holbrook, how much money do you think you all spend 
trying to educate your membership and others about what is 
going on out there?
    Mr. Holbrook. Mr. Chairman, as you know, our organization 
is basically a volunteer organization.
    Chairman Graham. Right.
    Mr. Holbrook. We have over 300,000 volunteers across the 
country who are involved in different phases of all these 
programs that I mentioned to you today. I would be more than 
happy to have the staff supply you an itemized cost list as to 
what we spend in each category, but I would like to make sure 
that we take into account the fact that we have most of our 
activity going on with volunteers who are devoting their time, 
as we are on our board of directors, to make sure that these 
things happen. But the staff will provide you with information 
on cost, because I think it is an important question.
    Chairman Graham. To me, it is one of the best projects you 
could take up in terms of your membership.
    Mr. Holbrook. I agree.
    Chairman Graham. How many members do you have now?
    Mr. Holbrook. Thirty-five million.
    Chairman Graham. And you communicate with them fairly 
regularly?
    Mr. Holbrook. We try to communicate with them everyday.
    Chairman Graham. Everyday.
    Mr. Holbrook. Not only with our magazine which goes out to 
each of their homes, but also those that have access to our Web 
page have immediate access to information that is going on all 
the time. So we are very pleased with the progress we have made 
in communicating with our members throughout the country.
    Chairman Graham. Now, when you talk to them and you get 
information back about what is on their minds, how does this 
particular elder abuse problem rank in terms of the top 5 or 6 
or 10?
    Mr. Holbrook. It ranks very high, within the first probably 
two or three. It is a very important issue on the minds of our 
members and continues, I think, to increase every year. We hear 
more and more problems about elder abuse in our country. 
Predatory lending is one that we spend a tremendous amount of 
time on.
    Chairman Graham. Absolutely.
    Mr. Holbrook. And also the others that I mentioned in my 
testimony and in our statement. All of these concern our 
members, and the unfortunate part about this is that so many of 
them have been taken advantage of by operators who have no 
concern about what they do for a living. They just take 
advantage of people.
    To me, it is a very personal thing, as it is with you, 
because it has affected my own family and the families of most 
all of us. So I am sure that it is something that we in AARP 
want to do something about, and I am delighted that the Senate 
and the Congress is now looking at this as a real problem that 
we must address.
    Chairman Graham. Do you think we are just asking better 
questions, or is there more activity going on in terms of elder 
abuse? A little of both?
    Mr. Holbrook. Well, I think there is more activity going 
on. I think there is more awareness of it. I was a little 
disappointed today when I read what happened in Oklahoma on the 
``do not call'' list, where the judge ruled it no longer in 
effect. I was a little disturbed about that.
    Chairman Graham. Me, too.
    Mr. Holbrook. Fifty million people are already signed up 
and now they say they are not going to deal with that. That was 
a very important part of trying to protect senior citizens.
    Chairman Graham. One of the things I would like to look at 
is capacity. Some people really don't have the capacity to make 
that initial phone call to take them off the list. Maybe there 
is something the Bar Association can do, or we can sort of 
institutionalize some type of guardian program to kind of shut 
the flow of information off.
    Just to sum up what you are telling me, you are getting 
more input from your 35 million members over this issue than 
you have in the past and it is in the top two or three 
concerns.
    Mr. Holbrook. I would say yes.
    Chairman Graham. If you could let me know how that develops 
over time, I think you are a great resource for us there.
    Mr. Holbrook. We would be very happy to.
    Chairman Graham. On the prosecution and enforcement side, 
the cases you have described are horrible, and there are laws 
that deal with sexual abuse and there are laws that deal with 
violence. What we have done in the child abuse area has paid 
tremendous dividends. I was a prosecutor in the Air Force and 
from my 6-year period, it went from being an occasional thing 
you would find to almost an epidemic. It really was always 
there; we just learned to ask questions better. We got the 
mental health agencies involved, and doctors involved, and 
school teachers involved to kind of educate the people on the 
front lines about victims.
    If you look, you will find more victims than you ever 
thought. So, hopefully, one of the things that the Elder Abuse 
Act will do is give us more eyes and give us a greater ability 
to look and understand what we are looking for.
    In terms of partnerships, I will try to help you with your 
$1 million funding. I am the new guy on the block. We will see 
how that goes, but it seems to be a project well worth putting 
some money behind.
    My staff gave me a good question--more of a comment than a 
question. The Justice Department has done a good job, I think, 
with Project Safe Neighborhoods, where they coordinate with 
local law enforcement--I am sure you are familiar with it--on 
gun crimes. The number of gun crimes has gone down dramatically 
because you have a task force mentality now between law 
enforcement officers and prosecutors at different levels to 
look at a particular crime when a gun is involved and kind of 
brain-storm it and see what Federal laws would fit, what State 
laws would fit, to get the maximum impact.
    I understand what Triad is about. Do you think something 
similar could occur in this area where you have elder abuse? I 
am all for States having the first bite at the apple and I 
don't want to federalize every crime in the country, but I 
would imagine a lot of these cases have a Federal component to 
them if you look hard enough.
    Mr. Chiles. Senator, I think certainly on the financial 
exploitation side, that would be true.
    Chairman Graham. Right, exactly.
    Mr. Chiles. On the physical side, probably not.
    Chairman Graham. Probably not, and you all are very capable 
of doing that, but I would like to get these people as hard as 
we can get them. Chances are, they have been abused in more 
than one way.
    Mr. Chiles. Yes, sir. In our most recent policy statement, 
adopted in March, one of the things that we strongly recommend, 
where possible, with office size and everything else, is the 
forming of task forces much like you suggest, to incorporate 
all different law enforcement agencies, social service 
agencies, adult protective services, and to react as a task 
force much as we are often now able to do in child abuse cases.
    One of the things that would help us in that regard, with 
prosecutors taking the lead on that task force, is more 
training. One of the things that we are recommending is the 
formation of a national center for the prosecution of elder 
abuse, neglect, and exploitation through the American 
Prosecutors Research Institute. Right now, APRI has a section 
like that in child abuse where they train literally hundreds of 
prosecutors a year, which lets the prosecutors then go back 
and, among other things, set up these task forces and things 
like that.
    Chairman Graham. Become experts, right. Well, we have a 
good site in Columbia, South Carolina, to do that.
    Mr. Chiles. We would love to use the NAC for that, also, 
yes, sir.
    Chairman Graham. Stay in touch with us about the efforts to 
do that.
    Mr. Wright, I do appreciate your taking time out to come. 
From the law enforcement side of the equation, would you be 
amenable to a Project Safe Neighborhoods for seniors?
    Mr. Wright. Absolutely, Mr. Chairman. Triads are locally 
managed and they work in different ways, and there is one, in 
fact, in Denver, the Metro Denver Triad, in which the district 
attorney there kind of heads it up. Typically, as I understand 
it, each year the Irish travelers who do a lot of home repair 
fraud--
    Chairman Graham. Yes. Some of them are from South Carolina.
    Mr. Wright. They are, they are, and they go out there and 
when they come out there in the spring, they have a task force 
approach which includes the Denver Police Department and the 
sheriff departments in Arapaho, Jefferson, and the surrounding 
counties.
    Chairman Graham. Does it have a Federal component to it?
    Mr. Wright. Not that I am aware of, sir.
    Chairman Graham. Maybe that is something we could integrate 
because it has worked very well in the gun area, where you get 
a Federal-State connection to really look at all the avenues 
available to you.
    Mr. Wright. Yes. Certainly, the National Sheriffs' 
Association also supports the Elder Justice Act. As was already 
stated, a lot of the response is intermittent and it comes and 
goes, so I would certainly support it.
    Chairman Graham. Well, what I will do to help the cause a 
bit is I will try to write Attorney General Ashcroft, who is a 
good friend and I think doing a great job for us in terms of 
fighting crime. I will try to write him and see if we can get 
some involvement, some thinking going on to try to integrate 
into what you are already doing nationwide. Hopefully, we can 
get some funding.
    Mr. Wright. We appreciate that.
    Chairman Graham. Anything else that you would like to leave 
with the Subcommittee before we call it a day?
    Thank you all. It has been very helpful. I appreciate your 
time and your energy, and I appreciate very much your coming.
    We have a resolution from the bar association that we will 
put in the record.
    Thank you all. The hearing is adjourned.
    [Whereupon, at 3:39 p.m., the Subcommittee was adjourned.]
    [Additional material is being retained in Committee files.]
    [Questions and answers and submissions for the record 
follow.]



<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
